                                                              NATIONAL SCIENCE FOUNDATION
                                                               OFFICE OF INSPECTOR GENERAL
                                                                 OFFICE OF INVESTIGATIONS

                                                      CLOSEOUT MEMORANDUM

    Case Number: A03100054                                                                        Page 1 of 1



                    As part of our review of conference/workshop awards, we became aware that an awardee'
            may have used NSF grant funds to purchase alcoholic beverages and pay for the travel expenses of
            federal employees who attended the conference as part of their official d ~ t i e s .We
                                                                                                 ~ requested the
            awardee's financial records for the award3and received receipts and other supporting documentation
            for expenditures of grant funds.

                    We confirmed that the awardee paid for an open bar reception, followed by a dinner for
            which the awardee purchased several bottles of wine. We were unable to establish clearly that
            federal funds were used for the purchase of the wine or the percentage of alcoholic beverages served
            during the reception. The awardee's receipts totaled more than the total amount expensed from the
            grant account. Therefore, we are satisfied that the awardee did not use NSF grant funds to purchase
            the alcoholic beverages.

                    We contacted the human resources departments at the facilities employing the federal
            employees who allegedly received improper compensation from the award. We learned that the
            participating employees were not, in fact, federal employees.

                   Our review of the receipts revealed three separate charges to the award for travel unrelated to
            the workshop. The awardee admitted that these charges were errors and not related to the workshop.
            We also identified a duplicate airfare charge for a participant. The awardee explained that the
            duplicate charge was an error and that reimbursement was sought fiom the travel agent. The
            awardee has reimbursed NSF for the erroneous and duplicate charges.4

                      We have no pending issues from our review of this award.

                      Accordingly, this case is closed.




            4
                Total amount of reimbursement   = $1,610.60




'NSF
I
       OIG Form 2 (1 1/02)
